United States Department of Agriculture
Office of Inspector General




American Recovery and Reinvestment Act,
Trade Adjustment Assistance for Farmers
Program




                                          Audit Report 50703-0001-23
                                          October 2013
                                            American Recovery and Reinvestment Act
                                        Trade Adjustment Assistance for Farmers Program

                                                       Audit Report 50703-0001-23

What Were OIG’s
Objectives
Our overall objective was to
assess the TAAF Program’s
controls over application
approval, payment
distribution, program               OIG audited FAS, FSA, and NIFA’s
operations oversight, and
agency reporting.                   administration of the TAAF Program and
                                    assessed the agencies’ implementation of
What OIG Reviewed                   program requirements.
We examined program
activities from FAS, FSA, and
NIFA’s national offices and         What OIG Found
third party entities, including a
review of TAAF Program              The Trade Adjustment Assistance for Farmers (TAAF) Program is
activities for 139 applicants at    administered by three agencies: the Foreign Agricultural Service
6 FSA State offices and 21          (FAS), the lead oversight agency; the Farm Service Agency (FSA),
county offices.                     which approves producer applications and makes payments to
                                    producers; and the National Institute of Food and Agriculture (NIFA),
What OIG Recommends                 which provides training and technical assistance for producers. While
                                    we found that FAS reported information, such as the amount of
FAS should review its               funding spent, on Recovery.gov as required, we found issues with the
financial accounts for unused       remaining objectives: agencies did not have the appropriate controls
funds. Further, if this program     in place to ensure that TAAF Program participants were eligible,
is funded after FY 2013,            payments were accurate, or oversight was sufficient.
FAS should strengthen its
eligibility process and             Specifically, FAS did not return unobligated and unneeded fiscal year
perform ongoing oversight           (FY) 2009 TAAF Program funds to the Treasury, which amounted to
reviews. FSA should review          approximately $65.1 million. Further, FAS granted a broad approval
the records of producers that       for all eligible producers of five commodities in specified counties or
refused submission to OIG,          States, called price pre-certifications. However, we found that two
include the program as part of      price pre-certifications did not meet eligibility criteria because FAS
its annual review, and              did not sufficiently analyze documentation. As a result, 13 of
implement stronger controls         37 producers we reviewed did not individually show a price decline
over its manual override            and received approximately $64,600. FAS also did not effectively
process. NIFA should                monitor or review FSA’s administration of the program, which
immediately complete the            allowed 85 producers to receive approximately $284,000 in benefits
certification and accreditation     to which they were not entitled; however, we only identified
process for the program             approximately $85,000 of these funds. Also, we found that NIFA did
database and implement              not ensure that the TAAF Program database was compliant with
interim procedures until            Federal information system security requirements. While FAS and
completed.                          FSA generally agreed with our recommendations, NIFA disagreed
                                    with our recommendations.
                           United States Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250




DATE:          October 18, 2013

AUDIT
NUMBER:        50703-0001-23

TO:            Phil Karsting                           Juan Garcia
               Administrator                           Administrator
               Foreign Agricultural Service            Farm Service Agency
               ATTN: Kim Cash                          ATTN: Philip Sharp

               Sonny Ramaswamy
               Director
               National Institute of Food and Agriculture
               ATTN: Jack Goldberg

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       American Recovery and Reinvestment Act – Trade Adjustment Assistance for
               Farmers Program


This report presents the results of the subject audit. Your written responses to the official draft
report, dated September 13, 2013, and September 25, 2013, are included in their entirety at the
end of this report, with excerpts and the Office of Inspector General’s position incorporated into
the relevant sections of the report.

Based on your written responses, we accept management decision on Recommendations 1, 2,
and 10. We are unable to accept management decision from the Foreign Agricultural Service on
Recommendations 3, 4, 5, 6, and 8; the Farm Service Agency on Recommendations 7, 9, 11, 12,
and 13; and the National Institute of Food and Agriculture on Recommendations 14 and 15. The
documentation or action needed to reach management decision for these recommendations are
described under the relevant OIG Position sections.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and timeframes for implementing the
recommendations for which management decisions have not been reached. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
from report issuance, and final action to be taken within 1 year of each management decision to
Phil Karsting, et al.                                                                             2


prevent being listed in the Department’s annual Agency Financial Report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.

This report contains publically available information and will be posted in its entirety to our
website (http://www.usda.gov/oig) in the near future.
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: Unobligated TAAF Program Funds .................................................... 4
Finding 1: FAS Did Not Timely Return Unobligated Program Funds to the
Department of the Treasury .................................................................................. 4
        Recommendation 1 ........................................................................................5
        Recommendation 2 ........................................................................................6
        Recommendation 3 ........................................................................................6
Section 2: Price Pre-Certification Approvals ....................................................... 7
Finding 2: FAS Did Not Use Consistent Factors When Granting Price Pre-
Certification Approvals .......................................................................................... 7
        Recommendation 4 ......................................................................................12
        Recommendation 5 ......................................................................................12
        Recommendation 6 ......................................................................................13
        Recommendation 7 ......................................................................................13
Section 3: TAAF Program Oversight.................................................................. 15
Finding 3: Stronger Oversight of TAAF Program Operations Needed .......... 15
        Recommendation 8 ......................................................................................18
        Recommendation 9 ......................................................................................19
        Recommendation 10 ....................................................................................20
        Recommendation 11 ....................................................................................20
        Recommendation 12 ....................................................................................21
        Recommendation 13 ....................................................................................21
Section 4: Federal Information System Requirements ..................................... 23
Finding 4: The TAAF Program Database Does Not Comply With Security
Requirements for Federal Information Systems ............................................... 23
        Recommendation 14 ....................................................................................24
        Recommendation 15 ....................................................................................25
Scope and Methodology ........................................................................................ 26
Abbreviations ........................................................................................................ 28
Exhibit A: Summary of Monetary Results ......................................................... 29
Exhibit B: Eligibility Determinations for Shrimp Producers in Eight Florida
Counties.................................................................................................................. 30
Exhibit C: Comparison of Originally-Approved Versus Subsequently-
Approved Louisiana Counties ............................................................................. 31
Exhibit D: Producers That Refused Submission of Records to OIG ............... 32
Exhibit E: List of FSA State and County Office Visited ................................... 33
Exhibit F: Sampling Methodology for the TAAF Program ............................. 34
Agency's Response ................................................................................................ 37
Background and Objectives
Background
The Trade Adjustment Assistance for Farmers (TAAF) Program is designed to offer technical
and financial assistance to farmers and fishermen impacted by import competition. In particular,
the program provides assistance to help farmers and fishermen become more competitive in
producing their current commodity or in transitioning to a different commodity. The TAAF
Program is administered by three agencies in the Department of Agriculture (USDA)—the
Foreign Agricultural Service (FAS), the Farm Service Agency (FSA), and the National Institute
of Food and Agriculture (NIFA)—each of which is responsible for implementing specific
program requirements (e.g., payments, training). FAS is the lead agency overall for
administering the TAAF Program and for certifying eligible commodities and producer groups.
FAS also facilitates the appeals process and disapproves applicants, based on recommendations
received from FSA. FSA is responsible for processing and approving individual applications,
and for making cash payments to eligible producers. NIFA is responsible for providing training
and technical assistance to all approved producers; the agency sub-contracted these
responsibilities to the Center for Farm Financial Management (CFFM) at the University of
Minnesota. Although not an administering agency for this program, the Economic Research
Service (ERS) assisted FAS by conducting analyses to determine whether commodities
petitioning to be included in the TAAF Program were negatively impacted by imports, resulting
in a decline in the commodity prices or in the quantity or value of production.

The American Recovery and Reinvestment Act of 2009 (Recovery Act) reauthorized and
modified the TAAF Program, providing $90 million annually in funding for FYs 2009 and 2010,
and $22.5 million for the first quarter of FY 2011. The funding was to be used for salaries and
expenses, including administrative costs, cash payments to producers, and development and
implementation of training programs. Although the Omnibus Trade Act of 2010 appropriated an
additional $10.4 million for program activities between January 1 and February 12, 2011, FAS
officials did not use these funds because they determined that the administering agencies could
not process the necessary commodity petitions and producer applications in accordance with
statutory timelines. 1

FAS faced stringent timeframes to implement the program and obligate funds. In February 2009,
FAS began developing program regulations, but because of the complexity of the program, these
regulations were not issued until March 2010. The administering agencies obligated
approximately $24.9 million for software development, establishment of training modules, and
payment of salaries. As such, approximately $65.1 million of the $90 million appropriated for
FY 2009 was unused, but remained on the agency’s accounting records to cover any upward or
downward adjustments. 2



1
 Public Law 111-344, dated December 29, 2010.
2
 Adjustments which increase or decrease current obligations for planned expenditures (e.g., salaries, contractual
agreements).

                                                                          AUDIT REPORT 50703-0001-23                1
The Recovery Act established a two-tiered process for determining eligibility for benefits under
the TAAF Program: the petition process and the application process. The petition process was
separated into two filing periods, one beginning in March 2010 and the second in May 2010.
The first filing period covered those applying for FY 2010 appropriated funds ($90 million),
while the second covered those applying for FY 2011 appropriated funds ($22.5 million). 3
Applicants applying under the FY 2010 filing period were eligible to receive up to $4,000 in
payments for the completion of an approved initial business plan, and an additional payment of
$8,000 for completion of a long-term business plan. In contrast, because the available funding
was not sufficient to cover the increased levels of program participation, producers approved
under the FY 2011 filing period received pro-rated payment amounts: approximately $971 for
completion of the initial business plan and another $1,943 for completion of the long-term
business plan. Producers have until FY 2013 to complete the program’s technical assistance and
applicable business plan(s). However, no additional funding has been appropriated to continue
the TAAF Program beyond the Recovery Act. 4

The petition process requires a group of three or more producers, a commodity association, or
other organization representing producers of a specific commodity, to provide FAS with
documented evidence that the competition from imports of their commodity contributed
significantly to a decline of more than 15 percent in at least one of the following areas:
(1) national average prices, (2) quantity of production, (3) value of production, or (4) cash
receipts compared to the average of the 3 preceding marketing years. Once FAS accepts a
petition and publishes it in the Federal Register, the agency must determine within 40 days
whether it meets Recovery Act eligibility requirements. If so, a separate announcement is
published in the Federal Register, noting the commodity has been certified for inclusion in the
TAAF Program and informing interested parties that the 90-day application period has begun.

Individual producers of that commodity may then submit an application to their local FSA office,
which then determines their individual eligibility for program benefits. To be considered
eligible, the producers must submit evidence to demonstrate that they produced the certified
commodity in the petitioned region during the marketing year covered by the approved petition,
and in at least 1 of the 3 prior marketing years. The producer must also meet one of the
following Recovery Act eligibility requirements: (1) a decline in production for the petition
year, compared to the most recent prior year in which the commodity was produced; (2) a
decline in the average unit price received during the petition year, compared to the average price
received during the prior 3 years; or (3) a decline in the recorded USDA county price for the
petitioned commodity, as of the petition filing date, compared to USDA’s average county prices
in that county for the prior 3 consecutive marketing years. 5




3
  FAS did not announce a filing period for FY 2009, and thus no commodities were approved and no payments were
disbursed to applicants.
4
  For the FY 2010 commodities certified in June 2010, producers have until June 2013 to complete both the initial
and long-term business plans. Similarly, for the FY 2011 commodities certified in September 2010, producers have
until September 2013 to complete both the initial and long-term business plans.
5
  Public Law 111-5, Section 296(a)(1)(a), dated February 17, 2009.

2     AUDIT REPORT 50703-0001-23
As the agencies continued administering the TAAF Program, FAS and FSA officials modified
program requirements to allow applicants to self-certify their individual eligibility. In the
official notice issued to program officials, FSA noted that these changes—which significantly
reduced the program’s controls for ensuring the individual eligibility of producers—were
necessary after being advised of the documentation requirements constraining applicant
eligibility. 6 Prior to this revision, producers were required to certify their eligibility by
submitting documentation showing their production quantities and/or the prices received. In
addition to these modified program requirements, FAS granted price pre-certification approvals
for each of the five agricultural commodities that were certified for the program: catfish,
asparagus, blueberries, lobster, and shrimp. 7 The Recovery Act made no provision for these
revisions, but the Office of the General Counsel (OGC) provided a legal opinion that the granting
of price pre-certification approvals was consistent with the statutory requirements outlined for
the TAAF Program. However, OGC also noted certain requirements that needed to be met
before price pre-certification approvals could be granted. These included a requirement that the
commodity price information used to support such approvals be representative of prices that
producers received in the requested areas, and a further requirement that the price data reflect a
decline consistent with the elements of eligibility, as outlined in the Recovery Act. No such
program modifications were made by NIFA officials.

Under the FY 2010 program, FAS certified petitions filed by U.S. asparagus and catfish
producers, both nationwide, and by U.S. shrimp producers in the Gulf and South Atlantic
regions. As a result, 4,522 producers were approved for training and cash benefits. Under the
FY 2011 program, FAS certified petitions filed by blueberry producers in Maine, lobster
producers in the Northeast region, and shrimp producers in Alaska and the Gulf and South
Atlantic regions. As a result, 5,715 producers were approved for training and cash benefits. A
total of 10,237 farmers and fishermen applied and were approved for training and cash benefits
under the TAAF Program. 8

Objectives
Our overall objective was to evaluate the internal controls established by FAS, FSA, and NIFA
for administering the TAAF Program and to assess the program’s policies and procedures.
Specifically, we determined whether (1) TAAF Program recipients were eligible for program
participation; (2) funds were properly obligated, timely distributed, and accurately calculated;
(3) program reporting requirements were met; and (4) the agencies provided sufficient oversight
to ensure that the TAAF Program was administered in an accountable and equitable manner.




6
  FSA Notice SP-57, “Revised TAA for Farmers Application Requirements,” dated August 2010.
7
  A pre-certification approval is an approval granted for a commodity based on the data submitted by producers or
producer groups that show the prices noted are representative of those prices received by producers in the requested
area. Under such approvals, a producer located in the covered geographic area does not have to prove his/her
individual price decline, but must meet all other eligibility requirements.
8
  The Gulf and Atlantic Coast regions represent the following States: Alabama, Florida, Georgia, Louisiana,
Mississippi, North Carolina, South Carolina, and Texas. Likewise, the Northeast region represents Maine,
Massachusetts, and Rhode Island.

                                                                          AUDIT REPORT 50703-0001-23               3
Section 1: Unobligated TAAF Program Funds
Finding 1: FAS Did Not Timely Return Unobligated Program Funds to the
Department of the Treasury
At the close of FY 2009, FAS neither returned unobligated TAAF Program funds to the
Department of the Treasury (Treasury) nor provided any evidence to show that all of the funds
were needed to meet future financial obligations. FAS officials stated that they are allowed to
retain these funds on their accounting records for a complete 5-year budget cycle to account for
any changes in program obligations in subsequent fiscal years. FAS also stated that agencies
typically would not voluntarily return funds until expired, at which time they are removed from
the agencies’ accounting records during the year-end closing process. While FAS may need to
retain a portion of its unobligated funds, using prudent business practices, the agency should
have evaluated its financial obligations and determined the amount of funds needed to cover any
potential liabilities and then returned the remaining funds to the Treasury to be used for other
critical functions, such as deficit reduction. However, this type of analysis was not performed.
As a result, approximately $65.1 million in unobligated and unneeded TAAF Program funds
remain on the agency’s accounting records more than 3 years after the close of FY 2009.

In accordance with the United States Code, Federal agencies are allowed to keep remaining
budget authority for 5 years after the appropriation expires to pay for any unliquidated
obligations and liabilities remaining on the agencies’ accounting records at the time of
expiration. 9 At the end of that 5-year period, all budgetary resources—both obligated and
unobligated—are canceled and returned to the Treasury, and thus any receivables and payables
are canceled. 10 However, the Dodd-Frank Wall Street Reform and Consumer Protection Act,
passed in July 2010, emphasized the need for Federal agencies to return to the Treasury any
discretionary appropriations that were not obligated by December 31, 2012. Such funds would
then be deposited into the General Fund and dedicated for the sole purpose of deficit reduction. 11

For FY 2009, the Recovery Act provided $90 million in funding for TAAF Program activities. 12
During this period, FAS spent the majority of its time developing policies and procedures
necessary to carry out the provisions of the TAAF Program. Therefore, it did not initiate the
petition and application processes that allowed producers to apply for and receive program
payments and, thus, no FY 2009 funds were allocated for program payments. However, FAS
allocated approximately $25 million of the $90 million to itself, ERS, and the other
administering agencies (FSA and NIFA) for developing software; establishing training modules;
and paying administrative costs, including salaries. Specifically, FAS allocated approximately
$19.6 million to NIFA for technical assistance and training, $5.3 million to FSA to develop and
maintain the TAAF Program database, $151,000 to itself for salaries and other administrative
costs, and $75,000 to ERS to review petition proposals submitted by producer groups. Of these


9
  Title 31 United States Code, Subtitle II, Chapter 15, Section 1552, dated January 7, 2011.
10
   Public Law 101-510, dated November 5, 1990.
11
   Public Law 111-203, Section 1613(b)(1), dated July 21, 2010.
12
   Public Law 111-5, dated February 17, 2009. Congress appropriated an additional $90 million for FY 2010 and
$22.5 million for the first quarter of FY 2011. (October 1 through December 31, 2010).

4     AUDIT REPORT 50703-0001-23
four agencies, ERS did not obligate any of the funds received because no petitions were
submitted and accepted in FY 2009 and FAS only obligated approximately $16,000 for the
payment of salaries and expenses. Thus, a total of $24.9 million in funding was obligated for
FY 2009 TAAF Program operations, leaving an unobligated balance of approximately
$65.1 million. As of May 2, 2013, these unobligated funds still remained on FAS’ accounting
records.

According to FAS officials, the normal accounting procedure is for funds to remain on the
agency’s financial records until they expire, which is usually after a 5-year period. Further, the
FAS officials stated that they needed to retain sufficient funds to cover any adjustments in the
financial obligations over the next 5 years. While this is allowed, over 70 percent of the
appropriated funds were unobligated, which we believe should have led FAS to question the
need for such a large amount of funds to cover any potential increases in financial obligations.
FAS, in coordination with the other agencies, should have performed a year-end review of TAAF
Program operations to determine the amount of additional funds needed to meet its FY 2009
financial obligations, and immediately returned the remaining funds to the Treasury.

During a follow-up discussion, FAS officials stated that they had begun to work with the other
agencies to determine their outstanding obligations and identify whether additional funds would
be needed to cover any potential increases. After these steps are completed, FAS intends to
return all unneeded funds to the Treasury no later than June 30, 2013. FAS also stated that, in
light of the current economic conditions, the agency intends to review all program accounts for
unobligated balances. Even though FAS is currently taking positive steps towards better
financial practices, as the lead agency it should have had adequate controls in place to properly
monitor and evaluate the agencies’ transactions and ensure that any unneeded funds were timely
returned to the Treasury.

Recommendation to FAS
Recommendation 1

FAS should immediately return the $65.1 million in unobligated FY 2009 Trade Adjustment
Assistance for Farmers (TAAF) Program funds to the Treasury.

Agency Response
In its September 13, 2013 response, FAS agreed with this recommendation and stated that it
would return all unobligated FY 2009 TAAF Program funds to the Treasury by December 31,
2013.

OIG Position
We accept management decision for this recommendation.




                                                              AUDIT REPORT 50703-0001-23        5
Recommendation to FAS

Recommendation 2

FAS should review the financial accounts for FY 2010 and FY 2011 TAAF Program operations
and determine whether unneeded funds still remain on the financial records. If so, FAS should
return any unneeded funds to the Treasury.

Agency Response
In the agency’s response dated September 13, 2013, FAS agreed with this recommendation and
stated that it would review the financial accounts for FYs 2010 and 2011 TAAF Program
operations and return any unneeded funds to the Treasury by December 31, 2013.

OIG Position
We accept management decision for this recommendation.

Recommendation to FAS

Recommendation 3

If the TAAF Program is funded after FY 2013, FAS should perform an analysis at the end of
each fiscal year, identify all unobligated funds, and return all excess funds to the Treasury.

Agency Response
In the agency’s response dated September 13, 2013, FAS agreed with OIG and stated that in
any future TAAF Program, if statutory provisions allow, FAS will review all unobligated funds
in the TAAF Program financial accounts at the end of each fiscal year and return any unneeded
funds to the Treasury.

OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FAS needs to remove the reference “if statutory provisions allow” from its response
since the statute would not specifically describe the policies and procedures for analyzing agency
accounts for unobligated and unneeded TAAF Program funds.




6    AUDIT REPORT 50703-0001-23
Section 2: Price Pre-Certification Approvals
Finding 2: FAS Did Not Use Consistent Factors When Granting Price
Pre-Certification Approvals
FAS implemented price pre-certification approvals, which FAS used to determine eligibility by
groups, instead of individually, to streamline the two-tiered eligibility process mandated by the
Recovery Act. Agency officials believed this action would simplify the application process and,
thus, increase program participation. However, citing time constraints, FAS officials did not
thoroughly analyze the documentation submitted by producer groups to support their request for
price pre-certification approvals for their particular commodities. As a result, we found that two
of the five price pre-certifications that FAS approved (for catfish and shrimp) did not meet the
criteria outlined in OGC’s legal opinion, upon which they based their authority to deviate from
the requirements of the Recovery Act. Additionally, while the third price pre-certification we
reviewed (for lobster) met the OGC requirements, 4 of the 8 sampled producers (50 percent)
were ineligible, according to the Recovery Act, to receive funding based upon their individual
qualifications. 13 We found this percentage to be generally comparable to—if not higher than—
the number of ineligible producers for the other two commodities. In all, we found that 13 of the
37 sampled producers (35 percent) who were approved under these provisions and received
approximately $64,600 would not have qualified to participate under the original two-tiered
eligibility requirements of the Recovery Act.

The Recovery Act established a two-tiered eligibility process under which both commodities and
individual producers had to be determined eligible under the criteria outlined in the Act. Under
the first eligibility tier, a group of producers had to submit a petition to FAS on behalf of
producers in their State or group of States to request that a commodity be certified as eligible
under the TAAF Program. Once FAS certified a particular commodity as eligible, producers of
that commodity were required under the second tier to submit documentation to FSA to show a
decline in price or production for their specific operations.

In August 2010, FAS officials made the decision to modify the eligibility requirements outlined
in the Recovery Act, in order to expedite the approval process and generate higher levels of
program participation. To accomplish this, FAS asked OGC whether eligibility requirements
would be met if it granted agricultural commodities price pre-certifications for selected groups of
individuals who produced an approved commodity, rather than only for individual producers.
Doing so would reduce the administrative burden on FSA, as staff would not need to review all
individual documentation, as well as on the producers, who would not need to individually
establish their eligibility. OGC concurred that the Recovery Act permitted such pre-certification,
as long as producers, or a group of producers of that commodity, still submitted each request for
approval, and that any price decline documented in the request be representative of prices that




13
  We reviewed the price pre-certification requests for all five commodities granted approval by FAS. However, our
sample of judgmentally selected producers only included those producers approved for three of the five agricultural
commodities—catfish, shrimp, and lobster.

                                                                        AUDIT REPORT 50703-0001-23               7
producers actually received in the requested area. 14 Under the price pre-certification process that
FAS subsequently implemented, individual producers covered by the pre-certifications were only
required to prove that they produced the approved commodity in the current marketing year and
in 1 of 3 prior marketing years in order to be determined eligible to participate in the TAAF
Program. 15

We found that FAS applied the group price pre-certifications too broadly for two of the five
commodities: catfish and shrimp. Price pre-certifications were extended either beyond
geographical boundaries, or encompassed additional types of the commodity, without adequate
support for these determinations. As a result, FAS made questionable eligibility determinations
for both groups and allowed ineligible producers to participate in the program. In addition, while
a price pre-certification approval granted for lobster was based on information that did support
this determination, because FAS did not appropriately review individual eligibility, not all
producers met the requirements, based on their own qualifications. These issues generally
occurred because FAS wanted to expedite the application process and increase program
participation and consequently, given the time constraints of the program, it did not conduct an
extensive review of all documentation.

         Catfish Producers

         Two separate producer groups requested that price pre-certifications be extended to
         catfish producers. One group (Group A) submitted information in August 2010 that
         demonstrated a decline in prices for both fingerling and fry-type catfish. 16 A second
         producer group (Group B) submitted pricing data in September 2010 that showed a
         similar price decline for food-size catfish. 17 Based on this data, FAS granted its approval
         for all catfish producers in seven States (Alabama, Arkansas, California, Louisiana
         Mississippi, North Carolina, and Texas) to participate in the program, based on price pre-
         certifications, rather than having to establish their eligibility individually. However, we
         found that the pricing data submitted by the two producer groups did not support such a
         broad extension of the price pre-certification authority in four States. Specifically, we
         found that:

             •    The data submitted by Group A for fingerling and fry-type catfish showed that,
                  while the prices did decline in five States, this was not the case in the remaining
                  two States (Alabama and Arkansas) for which information was submitted. Thus,
                  producers of fingerlings and fry-type catfish in those two States were allowed to



14
   FAS initially requested this opinion regarding shrimp producers in Louisiana and asparagus producers in
Michigan. FAS has applied the OGC opinion more broadly, and implemented pre-certification for all five
commodities: catfish, shrimp, lobster, asparagus, and blueberries.
15
   In addition to these requirements, producers also had to submit the required FSA eligibility forms (e.g., form AD
1026, FSA form 502/902).
16
   The data submitted by Producer Group A for fingerling and fry-type catfish exclusively supports a decline in
prices in California, Louisiana, Mississippi, North Carolina, and Texas.
17
   The data submitted by Producer Group B for food-size type catfish exclusively supports a decline in prices in
Alabama, Arkansas, California, Louisiana, and Mississippi.

8     AUDIT REPORT 50703-0001-23
                  participate without submitting proof of individual eligibility, even though the
                  available statistics showed that there was no general price decrease for their
                  commodity.

             •    Similarly, the data submitted by Group B for food-size type catfish showed that,
                  while the prices declined in five States, this was not the case in the remaining two
                  States (North Carolina and Texas) for which information was submitted. Thus,
                  producers of food-size catfish in those two States were similarly allowed to
                  participate without submitting proof of individual eligibility, even though the
                  available statistics showed that there was no general price decrease for this
                  commodity.

         Thus, by combining these two requests into a single authorization, FAS extended the
         price pre-certification to producers who may not have been eligible and who should have
         been required to demonstrate their eligibility on an individual basis, as required by the
         Recovery Act.

         We reviewed 16 producers that were granted price pre-certification approvals in 3 of the
         7 States (Louisiana, Mississippi, and North Carolina) and found that the producers’
         individual records did not indicate whether the data they submitted represented fingerling
         and fry-type or food-size catfish. 18 Further, we found that 4 of the 16 producers
         (25 percent) would not have qualified for program benefits in the absence of the price
         pre-certification approval because their records were either insufficient or did not show a
         decline in prices or production. These four producers received program benefits totaling
         $40,000.

         Shrimp Producers – Florida

         Producer Group C submitted a petition in September 2010 to request that shrimp
         producers in 21 counties in Florida be approved for price pre-certification. While FAS
         granted this approval, our review of the documentation supporting this approval disclosed
         several problems, as follows:

             •    The data submitted by Producer Group C covered shrimp producers in
                  21 different counties, which the group presented as being representative of
                  producers in those areas. While the evidence submitted did prove that the overall
                  average prices for shrimp declined when compared with prior years, the actual
                  decline was limited to only 12 of the 21 counties. For the remaining nine
                  counties, shrimp prices either did not decline or there were no data available to
                  support a decline. For example, Group C combined price data for three counties
                  (Santa Rosa, Okaloosa, and Walton Counties), computing an average price of
                  $2.81 for 2008 and $2.86 for 2005-2007. However, although price data for
                  Santa Rosa and Okaloosa counties showed a decrease in the shrimp price, there

18
   Originally, we judgmentally selected 19 of these catfish producers for further review. Since 3 of the 19 producers
either requested to withdraw their application or were referred to FAS for disapproval at the time of application, we
reviewed the records for the remaining 16 producers.

                                                                          AUDIT REPORT 50703-0001-23               9
                 were no price data available for Walton County for this time period. 19 Because
                 Group C informed FAS that all three counties had suffered a price decline for the
                 shrimp commodity, and FAS approved it without confirming the group’s
                 documentation, producers in Walton County were allowed to participate in the
                 TAAF Program without submitting proof of individual eligibility, even though the
                 available statistics showed that there were no data available to support a price
                 decrease in that area.

             •   In a second example, the prices in five counties (all located in Florida’s West
                 Central Region) did not support a decrease, but their average prices were
                 combined with three other counties whose prices supported a decline. Without
                 the price data for these five counties combined with other counties, the five
                 counties would not have met the eligibility requirements described under the
                 Recovery Act. Specifically, in determining the average price, the producer group
                 included counties where no price data were available at the time. As a result, the
                 overall average price for the eight counties significantly decreased and program
                 eligibility was granted for these counties. (See Exhibit B.)

        Shrimp Producers – Louisiana

        Producer Group C also submitted a petition on September 15, 2010, requesting that
        producers in 16 Louisiana counties be approved for price pre-certification for shrimp. 20
        However, our review of the documentation supporting this approval disclosed several
        issues, as follows:

             •   Producer Group C presented data demonstrating a decline in prices of shrimp in
                 16 counties in Louisiana. Since some FSA county offices service multiple
                 counties, in order to reduce the administrative burden, FSA included an additional
                 seven counties—which were not proven to have a decline—to the areas covered
                 by the price pre-certification. 21 FSA officials stated that because the added
                 counties were in close proximity to the counties which had been determined
                 eligible, they requested and were granted permission by OGC to extend the pre-
                 certification approvals there as well. However, in concurring, OGC stipulated
                 that the price pre-certification requests must include sufficient data to document
                 the representative prices received by producers in the applicable area. We found
                 that this requirement was not met for the additional counties. Both FAS and FSA
                 believed that the shrimp prices paid to producers in Louisiana were reasonably
                 consistent throughout the combined counties. However, we found that FAS did

19
   Available statistics confirm that in Santa Rosa county, shrimp prices in 2008 ($2.09) decreased, when compared
to the average prices for 2005- 2007 ($2.22). The price data also showed that the shrimp price in Okaloosa County
decreased in 2008 ($2.64) when compared to the average prices for 2005-2007 ($2.66).
20
   The 16 counties covered under producer Group C’s price pre-certification request include: Orleans County,
St. Tammany County, Tangipahoa County, St. Charles County, St. John County, Livingston County,
St. James County, Ascension County, Assumption County, Iberia County, St. Martin County, St. Landry County,
Evangeline County, Lafayette County, Acadia County, and Jefferson Davis County.
21
   The seven additional counties approved by FAS include: Terrebonne County, Lafourche County,
East Baton Rouge County, Washington County, St. Helena County, Plaquemines County, and St. Bernard County.

10      AUDIT REPORT 50703-0001-23
                 not require the producer group to provide any additional information to support
                 this position. This information, had it been obtained, would have shown no
                 overall price decline for the 23 counties collectively. (See Exhibit C.)

        Based on our review of 13 shrimp producers from Florida and Louisiana, we found that
        5 producers (38 percent) would not have qualified for TAAF Program benefits in the
        absence of the price pre-certification because they either did not have adequate records,
        or their records did not support a decrease in their shrimp prices. 22 These five producers
        received approximately $18,800 in program benefits.

        Lobster Producers – Maine

        Producer Group D submitted a petition in October 2010 to request that lobster producers
        for the State of Maine be approved for price pre-certification, which FAS approved.
        While the data reflected a decline in prices for the entire State, we found that not all
        producers met the individual eligibility requirements for the TAAF Program. Based on
        our review of eight lobster producers, we found that four producers (50 percent) would
        not have qualified for TAAF Program benefits in the absence of the price pre-
        certification because they either did not have adequate records or their records did not
        support a decrease in their lobster prices. 23 These four producers received approximately
        $5,800 in program benefits. Subsections are Body Text indented half an inch. When
        written, all text will be indented until the subsection concludes.

The issues for two of the three commodities (catfish and shrimp) occurred because FAS did not
sufficiently analyze the documentation submitted by the producer groups. When we spoke to
FAS officials regarding this matter, they stated that not enough time was available to thoroughly
review each pre-certification request because the end of the application period was near and they
needed to make immediate decisions. While we recognize FAS’ time limitations, it is critical
that FAS thoroughly review all supporting documentation prior to granting price pre-certification
approvals. The absence of such reviews increases the risk of allowing ineligible producers to
participate in the program and receive payments, as shown by the results of our reviews. As
noted above, 25 percent of the catfish producers, 38 percent of the shrimp producers, and
50 percent of the lobster producers we reviewed were ineligible, while 27 percent of the sampled
shrimp producers and 53 percent of the lobster producers—any or all of whom may have
likewise been ineligible—either did not comply with our requests for records or voluntarily
withdrew from the program after receiving our requests. (See Exhibit D.) In the future, if the
program is continued after the Recovery Act, to minimize the possibility of granting approval to
ineligible producers, FAS should develop a stronger and more effective review process prior to
granting price pre-certification approvals. This process could include obtaining the support of
other agencies, such as the Economic Research Service, that already have some familiarity with
the approved commodities.

22
   Initially, we judgmentally selected 22 shrimp producers from Florida and Louisiana for further review; however,
9 producers either did not respond to our request for records (see Exhibit D), withdrew from the program, or were
referred to FAS for disapproval at the time of application.
23
   Originally, we judgmentally selected 17 lobster producers from Maine for review; however, 9 producers either did
not respond to our request for records (see Exhibit D) or requested to withdraw their application.

                                                                      AUDIT REPORT 50703-0001-23               11
Recommendation to FAS

Recommendation 4

If the TAAF Program is funded after FY 2013, develop and implement procedures that require a
complete review and analysis of all documentation submitted by producer groups prior to
granting price pre-certification approval.

Agency Response
FAS agreed with this recommendation. It stated that in any future TAAF Program, if statutory
provisions and funding allow, FAS will implement a more extensive analytical process to
determine if prices submitted by producer groups as part of a price pre-certification request are
representative of prices received by producers in the requested region. The extent to which this
recommendation could be implemented may be impacted by statutory timelines and appropriated
allowances for such efforts.

OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FAS needs to remove the reference “if statutory provisions and funding allow” from its
response since the statute would not specifically describe the policies and procedures for
reviewing and analyzing the documentation submitted by producer groups and used to grant
price pre-certification approval.

Recommendation to FAS

Recommendation 5

If the TAAF Program is funded after FY 2013, require FSA to conduct spot checks of sampled
participants that were granted eligibility under the price pre-certification approval to ensure their
records support a decline in prices.

Agency Response
In its September 13, 2013 response, FAS stated that in any future TAAF Program, if statutory
and regulatory provisions allow, FSA will consider conducting spot checks of producers who
applied under a price pre-certification to verify information or certification provided. FAS
further stated that any such information supplied by producers under a spot check could not
affect their eligibility if a price pre-certification has been approved. It also stated that the extent
to which this recommendation could be implemented may be impacted by statutory timelines and
appropriated allowances for such efforts.




12     AUDIT REPORT 50703-0001-23
OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FAS needs to remove the reference “if statutory and regulatory provisions allow” from
its response, and it also needs to state that it will request FSA to conduct the spot checks if the
TAAF Program is funded after FY 2013.

Recommendation to FAS

Recommendation 6

If the TAAF Program is funded after FY 2013, ensure that the data provided by the producer
groups include prices that support a decline in all counties considered part of a combined county
office.

Agency Response
FAS agreed with this recommendation. FAS stated that in any future TAAF Program, if
statutory provisions and funding allow, FAS will implement a more extensive analytical process
to determine if prices submitted by producer groups as part of a price pre-certification request are
representative of prices received by producers in the requested region, including producers that
reside within an FSA administrative county (combined county). The extent to which this
recommendation could be implemented may be impacted by statutory timelines and appropriated
allowances for such efforts.

OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FAS needs to remove the reference “if statutory provisions and funding allow” from its
response since the statute would not specifically describe the policies and procedures for
analyzing information submitted by producer groups to support their request for price pre-
certification approval.

Recommendation to FSA

Recommendation 7

Require the producers who refused to submit production records to OIG to submit the required
documentation to the agency for review. For producers that do not submit the requested
documentation, collect all TAAF Program payments, totaling approximately $27,885, and
withhold any future TAAF Program payments. (See exhibits A and D.)




                                                             AUDIT REPORT 50703-0001-23         13
Agency Response
In its September 13, 2013 response, FSA officials stated that the provisions for spot checks of
producers are found at C.F.R 1580.502(d) as follows: “…if requested in writing by the U.S.
Department of Agriculture or any agency thereof, or the Comptroller General of the United
States, the producer shall provide all information and documentation the reviewing authority
determines necessary to verify any information or certification provided under this subpart…”
It further stated that under a pre-certification it is a given that there will be producers who would
not have been eligible because they are applying in a county with a price certification and FAS
and FSA have determined that it is not necessary for producers who met the program’s price
eligibility requirement, as part of an approved price pre-certification, to supply additional
documentation. FSA also stated that producers who did not provide documentation to OIG do
not need to return any program benefits.

OIG Position
We are unable to reach management decision for this recommendation. As cited in the
regulations found at C.F.R 1580.502(d), if requested in writing, producers are required to provide
all information and documentation that the reviewing authority determines necessary to verify
any information or certification provided. The producers discussed above refused to submit
documentation to OIG upon our written request. FSA needs to request the documentation from
the producers. As we discussed with FSA, if the producers refuse to provide the records to FSA,
it should collect the TAAF Program payments and withhold any future TAAF Program
payments. We acknowledge that if the producers provide records that show they do not meet the
pre-requisites for individual eligibility, FSA would not need to pursue recovery of the potential
overpayment because of the price pre-certification approval. To reach management decision,
FSA needs to provide copies of the bills for collection and accounts receivable for producers
receiving overpayments. If FSA determines not to collect from the producers, FSA must provide
a justification for not recovering the potential overpayments.




14     AUDIT REPORT 50703-0001-23
Section 3: TAAF Program Oversight
Finding 3: Stronger Oversight of TAAF Program Operations Needed
Although the TAAF Program was administered by three different USDA agencies, FAS, the lead
agency for oversight in the TAAF Program, did not effectively monitor or conduct reviews of the
other agencies’ day-to-day program administration. As a FAS program, FAS is ultimately
responsible for ensuring the program is administered as intended. However, FAS did not provide
FSA with guidance on when to review records that supported whether program participants were
eligible. In addition, FSA did not take adequate corrective actions to eliminate the improper use
of the manual override feature in its application processing system, which allowed some program
participants to receive TAAF Program benefits prior to meeting all training requirements;
instead, FSA treated the issue as a clerical problem, rather than addressing the underlying,
systemic cause. FAS officials stated that oversight reviews were not feasible at the time because
the agency needed to administer the program within stringent timeframes. As a result,
85 ineligible producers participated in the TAAF Program and received approximately
$284,000 in program benefits to which they were not entitled. 24

In FAS’ Recovery Act Plan, agency officials acknowledged that it was their responsibility to
monitor TAAF Program operations to ensure that the agencies administered the program in
accordance with Recovery Act guidance. Further, the plan states that each agency with
responsibilities for program implementation would conduct quarterly reviews of program
operations. The Office of Management and Budget, Circular A-123, Management’s
Responsibility for Internal Control, dated December 21, 2004, states that continuous monitoring
and testing should help the agency to identify poorly designed or ineffective controls. The use of
periodic reviews, reconciliation, and comparison of data, and periodic assessments should be
integrated as part of management’s continuous monitoring of internal controls.

However, neither the program regulations nor the Recovery Act Plan contained specific guidance
on performing reviews and oversight within the TAAF Program. In addition, since FAS did not
monitor the other agencies’ administration of the TAAF Program, it did not identify any of the
issues we found in our audit. These issues are discussed in the following sections.

         FSA Did Not Verify the Eligibility of Self-Certified Producers

         We found that FAS did not provide appropriate guidance or controls to safeguard against
         weaknesses in the self-certification process. This process allows producers to certify
         their production quantity and the price received for their commodities, but still requires
         them to show that they produced the commodity in the current marketing year and one of
         the 3 most recent prior marketing years. 25 While the Recovery Act’s two-tiered
         eligibility structure required applicants of approved commodities to also meet individual

24
   While approximately $284,000 in funding went to ineligible recipients, we are only recommending the recovery
of funds OIG identified, which total approximately $85,000.
25
   Self-certification does not require the producers to submit complete records at the time of application to support
their individual eligibility.

                                                                         AUDIT REPORT 50703-0001-23                15
        eligibility requirements, TAAF Program Handbook 1-SP, dated October 2010 only
        required that producers be asked to document their individual eligibility if selected for a
        spot check.

        We found that FSA did not conduct spot-check reviews for producers who certified their
        eligibility to receive program benefits under the TAAF Program and Recovery Act
        requirements. While FSA issued two notices that provided detailed instructions for
        conducting oversight reviews of its program participants, neither notice specified that
        these reviews would cover the TAAF Program. 26

        When we asked FSA officials why they had not developed spot-check procedures for the
        TAAF Program, they stated they had not received instructions from FAS—the lead
        agency for the TAAF Program—regarding either type of review that needed to be
        completed, or their timing, and that without such instruction, no such spot-check reviews
        would be performed. Because FSA had not performed spot checks or received guidance
        for such reviews to be performed, eligibility determinations were not verified for
        producers covered by self-certification. Failure to perform spot-checks increases the risk
        of disbursing payments to ineligible participants. We reviewed the records for
        22 judgmentally selected shrimp producers in Louisiana, Mississippi, North Carolina, and
        Florida whose TAAF eligibility was established as part of the self-certification approval
        process. Of these producers, 9 (41 percent) received payments totaling $84,000, even
        though the records showed that they did not qualify for TAAF Program benefits. For
        example:

            •   One producer in Louisiana was granted eligibility based on a self-certification that
                a decline had taken place in his production levels during the current marketing
                year. However, our review of the producer’s documentation disclosed there had
                been no such decline and that, in fact, production had increased during this time
                period. Either an upfront review of the applicant’s business records or a
                subsequent spot check would have revealed that this producer was ineligible to
                participate in the TAAF Program. The producer received $12,000 in payments.

            •   Another producer in Florida, approved under the FY 2010 application period,
                received $12,000 in TAAF Program payments upon completion of the initial and
                long-term business plans, based on a self-certification that the producer’s
                production levels declined during the current marketing year. However, the
                producer did not provide us with sufficient documentation to support this
                certification. Either a check of the producer’s eligibility at the time of
                certification, or a subsequent spot check would have disclosed that the producer
                did not meet program eligibility requirements.

            •   A third producer in Mississippi was determined eligible, based on the producer’s
                certification that a decline had taken place in his level of production during the
                current marketing year. In contrast, our review of the producer’s individual

26
 FSA Notice CP-667 – “2010 Compliance Reviews and Spot Checks,” dated March 1, 2011, and FSA Notice
CP-676 – “2011 Compliance Reviews and Spot Checks,” dated January 1, 2012.

16     AUDIT REPORT 50703-0001-23
                 records disclosed that the production quantity had, in fact, increased in
                 comparison to that of the most recent prior marketing year. Had FSA performed
                 either a pre-approval review of the producer’s records or a subsequent spot check,
                 it would have revealed that the producer was not eligible to participate. The
                 producer received $12,000 in payments.

        On June 7, 2012, FSA issued its FY 2012 Compliance Reviews and Spot Checks notice,
        which included a limited review of the TAAF Program. However, this review only
        required FSA to verify that a valid signature was present on the application, that the
        application was timely submitted, and whether all required FSA eligibility forms were
        submitted. While a step in the right direction, these procedures did not include a review
        of producers’ individual records, as stated in the FSA Handbook 1-SP. Without guidance
        from FAS and diligent reviews from FSA, ineligible individuals may continue to receive
        payments.

        FSA Did Not Effectively Monitor and Evaluate Use of the Manual Override Feature

        We also found FSA county offices in eight States manually overrode FSA’s automated
        TAAF Program application system to inappropriately process payments to producers who
        had not met the program’s training requirements. We attributed this to the FSA national
        office’s insufficient monitoring of county offices’ activities. As a result, FSA made
        118 overpayments, totaling approximately $200,000, to 76 producers who, at that point,
        were not eligible to receive them. 27

        In accordance with TAAF Program policies and an FSA notice, producers are eligible for
        payment only after all training requirements have been met and the applicable FSA
        county office receives electronic notification from the Center for Farm Financial
        Management (CFFM). 28 Producers are eligible for the first program payment only after
        they have completed the initial orientation, intensive training courses, and an approved
        initial business plan. If producers complete an optional long-term business plan, they are
        eligible for a second payment. However, in both instances, FSA officials should not
        initiate a payment until CFFM provides notification that the training is complete.

        During our review, the media reported that several producers in New Hampshire had
        received TAAF Program payments without fulfilling all of the necessary training
        requirements. 29 Upon further inquiry, we found that FSA had identified 66 producers in
        New Hampshire, 8 in Michigan, and 1 in Arkansas who received approximately
        $199,000 in program payments before fulfilling the training requirements. In addition,
        FSA identified 13 producers in 3 States (Michigan, Rhode Island, and Texas) whose
        training history had been changed in the application system to incorrectly show that all
        required training had been completed; however, this change did not result in any
        overpayments. FSA attributed these errors to the county offices’ use of a manual

27
   FSA initially identified 75 producers with overpayments totaling approximately $199,000, and OIG subsequently
identified one additional producer with an overpayment totaling approximately $1,000.
28
   FSA Notice PS-684 – “Authorization to Issue Trade Adjustment Assistance for Farmers (TAAF) Program
Payments and Payment Processing Software Instruction,” dated December 1, 2011.
29
   Seacoastonline Article. “N.H. Fisherman Asked to Return Federal Funds,” September 22, 2011.

                                                                     AUDIT REPORT 50703-0001-23              17
       override feature, which allowed county personnel to inadvertently change the producers’
       training status from “pending” to “approved.” With this change, the payment issuance
       process was initiated after final approval by the county executive director, resulting in
       overpayments.

       FSA officials stated that the override feature was necessary to allow county office staff to
       change a producer’s training status, but only under limited circumstances and with prior
       concurrence from the FSA national office. However, we found no indication that the
       county office personnel obtained this type of approval, nor were there procedures in place
       to monitor the use of the manual override feature. Therefore, these errors circumvented
       the established controls and resulted in premature payments to producers that had not met
       the necessary training requirements.

       To resolve this issue, on September 15, 2011, FSA issued a reminder to the county
       offices, instructing them to wait on training notifications from CFFM and not to use the
       manual override feature without prior approval from FSA Headquarters. We requested
       that FSA perform a second query to confirm that the manual override feature was no
       longer used and that no additional payments were issued in error. This query showed that
       the manual override feature had continued to be used for 11 producers in 3 States
       (California, Maine, and Tennessee) after FSA issued the new instructions. FSA could not
       explain the reason why these States failed to follow the instructions set forth in the
       reminder e-mail. While these changes only resulted in one overpayment, totaling
       approximately $1,000, it shows that FSA needs additional controls in place, such as
       allowing only the national office access to this override feature after verifying that
       training has been completed.

Even though FSA bears responsibility to oversee county office operations for the TAAF
Program, FAS, the lead agency for oversight, must ensure that all Program requirements are met.
Without adequate and effective oversight, FAS is unaware of the extent to which weaknesses
occur and, thus, is unable to prevent the issuance of erroneous TAAF Program payments.

Recommendation to FAS

Recommendation 8

If the TAAF Program is funded after FY 2013, develop and implement oversight procedures to
review TAAF Program operations for weaknesses and areas for improvement.

Agency Response
FAS agreed with this recommendation. FAS stated that the TAAF Program is a complex
undertaking with key functions provided by FAS, FSA, NIFA, ERS, and our university partners.
It further stated that in any future TAAF Program, FAS will continue to work closely with its
program partners with the goal of implementing a process that is accurate, effective, efficient,
and meets all statutory and regulatory requirements.


18     AUDIT REPORT 50703-0001-23
OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FAS needs to specifically indicate that if the TAAF Program is funded after FY 2013, it
will develop and implement oversight procedures to assess program operations for weaknesses
and areas for improvement.

Recommendation to FSA

Recommendation 9

Collect TAAF Program payments, totaling $84,000, from those producers whose self-
certification was not supported by their records submitted to OIG.

Agency Response
FSA stated that nine producers were identified by OIG during its field work to have questionable
eligibility documentation or who did not respond to OIG’s request for additional documentation.
The nine producers included; one shrimp producer in Mississippi, two shrimp producers in
Louisiana, two shrimp producers in North Carolina, and four shrimp producers in Florida.
USDA had previously identified and disapproved for benefits the shrimp producer in
Mississippi. FAS has since received an appeal of this disapproval from the producer, and is
working with the Office of the General Counsel to make a determination on this appeal. The two
shrimp producers in Louisiana have been determined after further review of their records by
USDA to be eligible for benefits, thus no further action is required. The two shrimp producers in
North Carolina elected to withdraw from the program without receiving any benefits, thus no
further action is required. The four shrimp producers in Louisiana have been determined after
further review of their records by USDA to be eligible for benefits, thus no further action is
required.

OIG Position
We are unable to reach management decision on this recommendation. Based on the
documentation provided by the two shrimp producers in Louisiana (Application Numbers
2211300005 and 2211300042) and the four shrimp producers in Florida (Application Numbers
1203300018, 1203300004, 1203300019, and 1203300026) and that were provided to FSA, the
documentation did not support the producers’ self-certification of their eligibility. To reach
management decision for this recommendation, FSA needs to provide a copy of the bills for
collection and accounts receivable against these producers or provide a justification for not
collecting the overpayments, to include any additional documentation or information supporting
the producers’ eligibility.




                                                           AUDIT REPORT 50703-0001-23        19
Recommendation to FSA

Recommendation 10

Collect the TAAF Program payment, totaling approximately $1,000, from the producer that was
issued an erroneous payment because of FSA’s use of the manual override feature.

Agency Response
FSA has determined that all approved producers who received a cash payment have successfully
completed the program’s required training elements, or action has been taken to implement
statutory and regulatory requirements.

OIG Position
We accept management decision for this recommendation.

Recommendation to FSA
Recommendation 11

If the TAAF Program is funded after FY 2013, include TAAF Program operations, including
spot checks of applicants’ production records, as part of the agency’s annual process for
performing compliance reviews.

Agency Response
In its September 13, 2013 response, FSA stated that in any future TAAF Program, if statutory
provisions allow, FSA will consider conducting spot checks of producers to verify information or
certification provided. The extent to which this recommendation could be implemented will be
determined by statutory timelines and appropriated allowances for such efforts. It further stated
that the TAAF Program has been added to the FSA National Review and Spot Check process
conducted on an annual basis, and that it recognizes that more substantive questions regarding
eligibility must be included in the future.

OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FSA needs to remove the references “if statutory provisions allow” and “consider” and
agree that it will conduct spot check reviews of the applicants’ production records as part of its
annual compliance review process.




20     AUDIT REPORT 50703-0001-23
Recommendation to FSA

Recommendation 12

If the TAAF Program is funded after FY 2013, establish and implement controls that would
require the producers to submit production records at the time of application.

Agency Response
In its September 13, 2013 response, FSA stated that in any future TAAF Program, if statutory
provisions allow, FSA will consider requiring producers to submit production records at the time
of application. It further stated that the extent to which this will occur largely depends on the
agricultural industry that is predominantly participating in the program and the regions in which
these industries are located.

OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FSA needs to remove the reference “if statutory provisions allow” since the statute
would not specifically describe the policies and procedures for submitting production records at
the time of application.

Recommendation to FSA

Recommendation 13

If the TAAF Program is funded after FY 2013, develop and implement controls to prevent the
use of the manual override feature within the TAAF Program Application system in the absence
of the training update.

Agency Response
In its response dated September 13, 2013, FSA stated that in any future TAAF Program, FSA
Headquarters will continue to work closely with the FSA State offices (STO) in their efforts to
administer this complex program. The TAAF software provides the STOs with needed
flexibility that allows for administrative decisions to be made based on the applicant’s unique
circumstances. We will consider the use of a special authorization feature to be added to the
software when the use of a manual override is necessary in the event the program is funded in the
future. FSA Headquarters will continue to provide detailed information to the STOs on
provisions of the TAAF Program and guidance on proper procedures for approvals and payments
per statutory requirements.




                                                            AUDIT REPORT 50703-0001-23        21
OIG Position
We are unable to reach management decision for this recommendation. To reach management
decision, FSA needs to remove the reference “we will consider” and agree that it will develop
and add a special authorization feature to the TAAF software which will be used when a manual
override is necessary.




22     AUDIT REPORT 50703-0001-23
Section 4: Federal Information System Requirements
Finding 4: The TAAF Program Database Does Not Comply With Security
Requirements for Federal Information Systems
We found that NIFA did not ensure that the TAAF Program database, maintained by a contracted
vendor, was in compliance with Federal information system security requirements for
certification and accreditation. 30 Although NIFA officials acknowledged that this database was
necessary and instrumental to administering the program, they stated that they did not believe
that the system needed the normal Departmental-level review because they considered this to be
only an interim system, rather than the primary TAAF Program database. However, an OGC
written opinion confirms that this system must meet Federal information security requirements.
Without the required Departmental review, NIFA’s system may not have adequate security to
safeguard sensitive data that it contains, including the personally identifiable information of
program participants.

The Federal Information Security Management Act of 2002 (FISMA) requires that each agency
be responsible for providing information security protections equal to the risks and magnitude of
the potential harm resulting from unauthorized access, use, or disclosure of information. 31 Both
FISMA and USDA directives require that each information technology system pass through a
certification and accreditation process and then be approved by USDA’s Office of the Chief
Information Officer (OCIO) before becoming operational. 32

NIFA entered into a cooperative agreement with the Center for Farm Financial Management
(CFFM) at the University of Minnesota to provide training and technical assistance to eligible
producers under the TAAF Program. The program has two separate databases, which house
producer information and are instrumental in the successful administration and operation of the
program. Both systems, individually owned and operated by FSA and CFFM, are each referred
to as the TAAF Application. Each database operates concurrently to exchange data regarding
the producer’s program eligibility and training status, passing information between the two
systems.

However, we found that the TAAF Program database operated by CFFM does not comply with
security requirements for Federal information systems. Specifically, NIFA had not informed
USDA’s Chief Information Officer of the TAAF Application’s existence, or taken steps to
ensure it was managed in accordance with Federal guidelines.



30
   According to the NIST Special Publication 800-37, the term certification and accreditation was revised and is now
referred to as the Risk Management Framework.
31
   Public Law 107-347, Federal Information Security Management Act of 2002 (FISMA), Title III, Section 301,
Subsection 3544(a)(1)(A), dated December 17, 2002.
32
   Certification is a comprehensive assessment of a system’s security features and safeguards to establish whether it
has met specified security requirements, and accreditation is the formal declaration by a designated accrediting
authority that the system is approved to operate using a prescribed set of safeguards. Departmental Manual
3555-001, Chapter 11, part 1, dated October 18, 2005.

                                                                        AUDIT REPORT 50703-0001-23               23
This occurred because NIFA did not believe that its database was subject to Federal standards,
such as FISMA. When we spoke to NIFA officials, they explained that the TAAF Application
was a system to be used only in the interim until a permanent system could be established by
FSA; thus, they believed that it did not require the Departmental-level review, as would have
been the case with a system that was intended to be in long-term use. However, we found that
this application was intended for long-term use because in its cooperative agreement with NIFA,
CFFM agreed to develop an on-line database to track all participant training activities associated
with the TAAF Program. This database would be used to communicate to FSA the training
status of all applicants. Additionally, FISMA requirements apply to all information contained
within any system that uses or processes such information on behalf of an agency. Since this
system contains sensitive data, including personally identifiable information on program
participants, it is critical that the information transmitted and stored in both of the TAAF
Program databases be properly secured at all times.

Officials of NIFA and CFFM disagreed with our assessment that the TAAF Application was
subject to these requirements, and requested a legal opinion from OGC. Specifically, NIFA
requested clarification as to whether CFFM was performing a government function on behalf of
USDA, and whether CFFM’s administration of the technical and training assistance requirements
under the TAAF Program made it necessary for its information system to comply with FISMA’s
requirements. In response, OGC issued an opinion on March 19, 2012, stating that CFFM was
acting on behalf of USDA, since it was functioning as a direct extension of the Federal
Government to accomplish a Federal Government function. Further, OGC opined that, since
FISMA requirements apply to all Federal contractors and organizations that collect or maintain
information on behalf of USDA agencies, CFFM’s system must be FISMA-compliant.

FISMA was implemented to improve the security of Federal information systems and the
information they contain, and therefore requires Federal agencies to develop, document, and
implement agency-wide information security programs. Since OGC has determined that
CFFM’s system falls under these requirements, it is imperative that NIFA and CFFM adhere to
Departmental requirements and perform the necessary certification and accreditation process to
protect the security of the data maintained and stored on its system. Without doing so, the
sensitive information that is contained in these databases may be compromised.

Recommendation to NIFA

Recommendation 14

Immediately notify USDA’s Chief Information Officer of the existence of the TAAF Program
database and work with its security personnel to complete the certification and accreditation
process.

Agency Response
In its response dated September 25, 2013, NIFA disagreed with this recommendation and stated
that it should be directed to FSA since the primary TAAF Program database is maintained by
FSA. NIFA also stated that it discussed the existence of this database with USDA’s Chief

24     AUDIT REPORT 50703-0001-23
Information Officer (CIO) who agreed that the database is FSA’s responsibility and it is
responsible for compliance with FISMA and USDA security requirements for Federal
information systems.

OIG Position
We are unable to reach management decision for this recommendation. As stated in OGC’s legal
opinion, dated March 19, 2012, NIFA entered into a cooperative agreement with the Center for
Farm Financial Management (CFFM) to establish a National TAAF Training Coordination
Program, which required CFFM to develop and deliver training and technical assistance for
program producers. The legal opinion further states that from the terms of the agreement, CFFM
was acting as a direct extension of USDA to accomplish the notification, training, and reporting
requirements of the TAAF Program. As such, CFFM’s information system is in effect a Federal
information system and is required to meet FISMA information assurance requirements. To
reach management decision, NIFA needs to inform OCIO of NIFA’s responsibility for the
database and provide a date indicating its planned completion of the certification and
accreditation process.

Recommendation to NIFA
Recommendation 15

Work with the Center for Farm Financial Management (CFFM) to implement interim procedures
to protect the TAAF Program data until the certification and accreditation process is complete.

Agency Response
In its response dated September 25, 2013, NIFA disagreed with this recommendation and stated
that it should be directed to FSA since the primary TAAF Program database is maintained by
FSA. NIFA also stated that it discussed the existence of this database with USDA’s CIO who
agreed that the database is FSA’s responsibility, and that FSA is responsible for compliance with
FISMA and USDA security requirements for Federal information systems.

OIG Position
We are unable to reach management decision for this recommendation. As stated above, in
OGC’s legal opinion, it stated that NIFA entered into a cooperative agreement with CFFM to
establish a National TAAF Training Coordination Program, which required CFFM to develop
and deliver training and technical assistance for program producers. OGC further stated that
FISMA requirements apply to all Federal contractors and organizations that collect and maintain
information on behalf of an agency. Since the CFFM is performing USDA’s congressionally
mandated training and technical assistance functions, its information system is required to be
FISMA compliant. We believe that since NIFA, not FSA, entered into the cooperative
agreement with CFFM, that it is NIFA’s responsibility to ensure that the security requirements
are met. To reach management decision, NIFA needs to indicate the date that the interim
procedures for protecting the TAAF Program data will be implemented.
                                                           AUDIT REPORT 50703-0001-23         25
Scope and Methodology
USDA’s FAS received specific Recovery Act funding for administering the TAAF Program in
coordination with FSA and NIFA, which subsequently contracted its responsibilities to CFFM at
the University of Minnesota. We therefore performed a review of each agency’s roles and
responsibilities for implementing the TAAF Program requirements, including the provision of
training and the issuance of payments to eligible producers. Our review covered the agencies’
administration of the program for FY 2009 through FY 2011, totaling $202.5 million in
appropriated funding. As of August 2012, FSA had issued over $55 million in TAAF Program
payments for FY 2010 and FY 2011. In addition, we performed a limited review of the two IT
systems used for administering the TAAF Program and assessed the controls over each system’s
data integrity. (See Finding 3.)

We performed fieldwork between March 2011 and April 2013 at FAS, FSA, and NIFA national
offices in Washington, D.C.; 6 statistically selected FSA State offices; and 21 FSA county
offices within these States. Specifically, we visited six FSA county offices in Louisiana, four in
Mississippi, four in North Carolina, one in Alabama, and three each in Florida and Maine. Our
sample also included a review of 139 applications for producers who applied for program
participation at these county offices. 33 (See Exhibit F.) For the 139 statistically selected
applications, we determined whether the Form FSA 229-1, “TAAF Program Application,” was
submitted timely, whether the producers completed all of the required FSA eligibility forms
(e.g., form AD 1026, form CCC-502/902, form CCC-526/926), and whether adequate internal
controls existed at the county offices to ensure that these requirements were met.

In addition, we judgmentally selected 80 of the 139 sampled applications, to determine whether
these individuals could establish eligibility using their individual records. This decision was in
response to FAS granting price pre-certification approvals, which negated the second step of the
two-tiered eligibility process. To judgmentally select our sample of 80 applicants, our criteria
consisted of:

     •   A 100 percent review of the applications within county offices containing 1-3 statistically
         sampled applications, and
     •   A 50 percent review of the applications within county offices containing between 4 and
         13 statistically sampled applications.

For this sample, we performed a complete analysis of the producers’ records to determine
whether they met one of the three criteria shown on the TAAF Program application form: (1) a
decline in production for the petition year, compared to the most recent prior year in which the
commodity was produced; (2) a decline in the average unit price received during the petition
year, compared to the average price received during the prior 3 years; or (3) a decline in the

33
   At the sample design stage, a total of eight States were initially statistically selected for review. However, two
States (Massachusetts and Texas) were not covered during the audit. For Massachusetts, no audit work was
performed because in randomly selecting county offices for review, none were drawn during the sample design
stage. In addition, no audit work was performed for the four counties selected in Texas because the audit team had
gathered sufficient data in the other six States to conclude that additional controls were needed in the administration
of the TAAF Program. (See Exhibits E and F.)

26       AUDIT REPORT 50703-0001-23
recorded USDA county price for the petitioned commodity as of the petition filing date,
compared to USDA’s average county prices in that county for the prior 3 consecutive marketing
years.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                                           AUDIT REPORT 50703-0001-23        27
Abbreviations
C&A .......................................Certification and Accreditation
CFFM .....................................Center for Farm Financial Management
ERS ........................................Economic Research Service
FAS ........................................Foreign Agricultural Service
FISMA ...................................Federal Information Security Management Act
FSA ........................................Farm Service Agency
FY ..........................................Fiscal Year
NIFA ......................................National Institute of Food and Agriculture
OCIO ......................................Office of the Chief Information Officer
OGC .......................................Office of the General Counsel
OIG ........................................Office of Inspector General
Recovery Act .........................American Recovery and Reinvestment Act of 2009
TAAF Program ......................Trade Adjustment Assistance for Farmers Program
Treasury .................................United States Department of the Treasury
USDA.....................................Department of Agriculture




28     AUDIT REPORT 50703-0001-23
Exhibit A: Summary of Monetary Results

This exhibit presents the $65,277,485 in questioned and unsupported monetary amounts
referenced in this report as they correspond to the individual findings.

    Finding     Recommendation        Description        Amount              Category
1               1                   Unobligated and     $65,100,000    Funds To Be Put To
                                    unneeded TAAF                      Better Use, Improper
                                    Program funds                      Accounting
                                    retained on the
                                    agencies’
                                    accounting
                                    records
2               5                   Payments made           $64,600    Questioned Costs and
                                    to producers                       Loans, No Recovery
                                    approved under                     Recommended
                                    the price pre-
                                    certification
                                    provisions, and
                                    whose records
                                    did not support
                                    their individual
                                    eligibility
2               7                   Payments made           $27,885    Unsupported Costs and
                                    to producers that                  Loans, Recovery
                                    refused to submit                  Recommended
                                    documentation to
                                    OIG upon
                                    request
3               9                   Payments made           $84,000    Unsupported Costs and
                                    to producers                       Loans, Recovery
                                    approved under                     Recommended
                                    the self-
                                    certification
                                    provisions, and
                                    whose records
                                    did not support
                                    their individual
                                    eligibility
3               10                  Payment                  $1,000    Unsupported Costs and
                                    incorrectly made                   Loans, Recovery
                                    to a producer                      Recommended
                                    because of the
                                    use of the manual
                                    override feature
Total                                                   $65,277,485



                                                         AUDIT REPORT 50703-0001-23       29
Exhibit B: Eligibility Determinations for Shrimp Producers in Eight
Florida Counties


         County                 Individual County               Average County                  OIG Eligibility
                                  Prices (2008) 34             Prices (2005-2007)               Determination 35
        Charlotte                      $3.00                          $3.20                          Yes
         Collier                         $0.00                          $2.07                            No
        Hernando                         $4.24                          $3.50                            No
       Hillsborough                      $1.81                          $2.11                           Yes
           Lee                           $1.96                          $2.13                           Yes
         Manatee                         $0.00                          $1.87                            No
          Pasco                          $0.00                          $1.16                            No
         Pinellas                        $1.94                          $1.87                            No


     Combined County
                                         $1.62                          $2.24                           Yes
        Prices 36




34
   For those counties whose individual county prices are shown as $0.00, no price data were available at the time
when this data was compiled by the producer group.
35
   Five of the eight counties did not show an individual price decline in order to meet the individual eligibility
requirements.
36
   The combined county prices were computed using the sum total prices for all eight counties divisible by the sum
totals of their average prices. In computing the combined county price for 2008, the producer group included three
counties with no price data, which resulted in a significant decrease in the overall county price for the eight counties.

30       AUDIT REPORT 50703-0001-23
Exhibit C: Comparison of Originally-Approved Versus
Subsequently-Approved Louisiana Counties
This exhibit shows OIG’s eligibility determinations based on average prices for counties in
Louisiana for FY 2008 and the 3 prior marketing years.

                        Average Prices   Average Prices        Eligibility             Explanation
                           (2008)         (2005-2007)

16 Louisiana                                                                 This represents the
Counties, approved                                                           prices for the 16
on 9/22/10:
                                                                             counties originally
                                                                             granted price pre-
Orleans, St.                                                                 certification approval
Tammany,
                                                                             by FAS. The data
Tangipahoa, St.
Charles, St. John the                                                        submitted by the
Baptist, Livingston,                                                         producer group
St. James,                                                                   collectively showed a
Ascension,                                                                   price decline in the 16
Assumption, Iberia,
                                                                             counties in the current
St. Martin, St.
Landry, Evangeline,                                                          year compared to the
Lafayette, Acadia,                                                           average prices in the
Jefferson                        $1.52             $1.79                 Yes 3 prior years.


23 Louisiana                                                                      This represents the
Counties, approved                                                                prices for 23 counties
on 9/29/10:
                                                                                  whose prices did not
                                                                                  collectively support a
Orleans, St.                                                                      price decline. These
Tammany,
                                                                                  23 counties include the
Tangipahoa, St.
Charles, St. John the                                                             16 counties originally
Baptist, Livingston,                                                              approved by FAS;
St. James,                                                                        however, the inclusion
Ascension,                                                                        of the seven additional
Assumption, Iberia,
                                                                                  counties did not
St. Martin, St.
Landry, Evangeline,                                                               support a price
Lafayette, Acadia,                                                                decline.
Jefferson,
Terrebonne,
Lafourche, East
Baton Rouge, St.                 $1.40             $1.18                     No
Helena, St. Bernard,
Plaquemines,
Washington



                                                           AUDIT REPORT 50703-0001-23           31
Exhibit D: Producers That Refused Submission of Records to OIG

This exhibit lists the producers who did not submit documentation to OIG for review.


                                                                                                 Payments
 Application Number                   Commodity                          State
                                                                                                 Received 37
      2210300011                  Shrimp (2010005)                    Louisiana                           $12,000
      2210300052                  Shrimp (2011002)                    Louisiana                                $971
      1205700008                  Shrimp (2010005)                      Florida                           $12,000
      2303100104                  Lobster (2011003)                     Maine                                    $0
      2303100168                  Lobster (2011003)                     Maine                                    $0
      2300500315                  Lobster (2011003)                     Maine                                    $0
      2303100082                  Lobster (2011003)                     Maine                              $2,914
      2300900265                  Lobster (2011003)                     Maine                                    $0
                                                                         Total                            $27,885




37
  At the time of our request, four of the producers had not received a payment and are noted as $0; however,
because they were not disapproved by the agency, they may complete the program requirements and receive
payments in the future.

32      AUDIT REPORT 50703-0001-23
Exhibit E: List of FSA State and County Office Visited

This exhibit shows the total number of applications reviewed by the audit team in specific States
and counties.

                 State                        FSA County Offices               Total Applications Reviewed
                                            Calcasieu, East Carroll,
              Louisiana                      Franklin, Lafourche,                              59
                                            Vermillion, Washington
                                            Bolivar, Clay, Quitman,
              Mississippi                                                                      19
                                                 Washington
                                              Greene, Pamlico, Pitt,
           North Carolina                                                                      12
                                                  Washington

               Alabama                                  Dale                                    1

                                            Escambia, Hillsborough,
                Florida                                                                        19
                                                   Putnam
                                            Cumberland, Penobscot,
                Maine                                                                          29
                                                  Oxford 38

                                                                                          Total: 139




38
     Oxford County producers are serviced through the South Paris FSA County Office located in South Paris, ME.

                                                                       AUDIT REPORT 50703-0001-23                 33
Exhibit F: Sampling Methodology for the TAAF Program
Objective
This sample is designed to support OIG audit number 50703-0001-23. The objective of the
TAAF Program audit is to evaluate the internal controls established by FAS, FSA, and NIFA for
administering the TAAF Program and to assess the program’s policies and procedures.
Specifically, the audit team will determine whether (1) the TAAF Program recipients were
eligible for program participation; (2) funds were properly obligated, timely distributed, and
accurately calculated; (3) program reporting requirements were met; and (4) sufficient oversight
exists to ensure that the TAAF Program was administered in an accountable and equitable
manner.
The sampling objective is to develop a representative random statistical sample for review, to analyze
sample data collected by the audit team, and to provide estimates for criteria being audited.
Audit Universe
The universe list was provided to OIG statisticians by the audit team. The universe consisted of
11,007 TAAF Program applications filed nationwide. Due to resource and travel considerations,
we limited our review to the top eight States—those that included at least 200 applications per
State. This limited universe represented 89 percent of all TAAF Program applications in the
entire United States (US). However, after further planning, we dropped one of the States
originally selected for review (Texas) from the sample and the projectable universe. Hence, our
final projectable universe consists of 8,711 applications located at 103 county offices in the
following seven States: Alabama, Florida, Louisiana, Maine, Massachusetts, Mississippi, and
North Carolina. This limited universe includes about 80 percent of all TAAF Program
applications filed nationwide. Our statistical projections will only apply to those seven States
and 80 percent of applications.
Sample Design
For this audit, we decided to use a clustered, two-stage sample design. TAAF Program
applications were spread across county offices in seven States. We clustered the applications
based on these filing offices. Hence, at stage 1 of sample selection, we developed 103 clusters.
We randomly chose 25 county offices for review, which contained a number of applications. For
each of the 25 county offices selected at stage 1, we randomly picked a set of applications for
review. 39 Our audit team was not able to review one of the applications in our sample due to a
mismatched name/application number. We dropped this application from our sample and
projectable universe. The final sample application count was 139. The sample selection
structure is presented in Table 1 below.

39
   At the sample design stage, a total of eight States were initially statistically selected for review. However, two
States (Massachusetts and Texas) were not covered during the audit. For Massachusetts, no audit work was
performed because in randomly selecting county offices for review, none were drawn during the sample design
stage. In addition, no audit work was performed for the four counties selected in Texas because the audit team had
gathered sufficient data in the other six States to conclude that additional controls were needed in the administration
of the TAAF Program. (See Exhibit E.)

34      AUDIT REPORT 50703-0001-23
Table 1: TAAF Program Sample Design Structure
                                                                                     Stage 2 selection
Stage 1                                                                             count - number of
selection       Office                              Number of apps per office in     apps selected for
count           location   Office Name                                 universe      review at stage 2
                           DALE COUNTY FARM
            1   AL         SERVICE AGENCY                                      1                    1
                           ESCAMBIA COUNTY FARM
            2   FL         SERVICE AGENCY                                     31                   11
                           HILLSBOROUGH COUNTY
            3   FL         FARM SERVICE AGENCY                                 8                    6
                           PUTNAM COUNTY FARM
            4   FL         SERVICE AGENCY                                      2                    2
                           CALCASIEU COUNTY
            5   LA         FARM SERVICE AGENCY                                38                   13
                           EAST CARROLL COUNTY
            6   LA         FARM SERVICE AGENCY                                 2                    2
                           FRANKLIN COUNTY FARM
            7   LA         SERVICE AGENCY                                      7                    5
                           LAFOURCHE COUNTY
            8   LA         FARM SERVICE AGENCY                               529                   13
                           VERMILION COUNTY
            9   LA         FARM SERVICE AGENCY                               116                   13
                           WASHINGTON COUNTY
        10      LA         FARM SERVICE AGENCY                                65                   13
                           CUMBERLAND/YORK
                           COUNTY FARM SERVICE
        11      ME         AGENCY                                            670                   13
                           PENOBSCOT COUNTY
        12      ME         FARM SERVICE AGENCY                               626                   13
                           SOUTH PARIS FARM
        13      ME         SERVICE AGENCY                                      3                    3
                           BOLIVAR COUNTY FARM
        14      MS         SERVICE AGENCY                                      2                    2
                           CLAY COUNTY FARM
        15      MS         SERVICE AGENCY                                     10                    6
                           QUITMAN COUNTY FARM
        16      MS         SERVICE AGENCY                                      5                    5
                           WASHINGTON COUNTY
        17      MS         FARM SERVICE AGENCY                                 8                    6
                           GREENE COUNTY FARM
        18      NC         SERVICE AGENCY                                      2                    2
                           PAMLICO COUNTY FARM
        19      NC         SERVICE AGENCY                                      4                    4
                           PITT COUNTY FARM
        20      NC         SERVICE AGENCY                                      4                    4
                           WASHINGTON COUNTY
        21      NC         FARM SERVICE AGENCY                                 2                    2
                                                  Total number of applications in
                                                                         sample:                  139



                                                                    AUDIT REPORT 50703-0001-23           35
In summary, we selected 139 applications for review. We had no historical information on
which to base a sample size calculation. In particular, we did not know where to expect variance
to occur. Therefore, the total sample size selected is based on assumptions regarding expected
error rate at a desired precision and confidence level.

Results
Our audit team performed an initial review of all 139 applications selected in our sample. They
determined whether the Form FSA 229-1, “TAAF Program Application,” was submitted timely,
whether the producers completed all of the required FSA eligibility forms (e.g., form AD 1026,
form CCC-502/902, form CCC-526/926, etc.), and whether adequate internal controls existed at
the county offices. They found zero exceptions for the applications’ timeliness and four
exceptions for producers that did not complete all of the required FSA eligibility forms. None of
these criteria tested resulted in reportable findings for the audit because the number of instances
found was deemed immaterial when compared to the total of applications reviewed. Hence, we
will not use projections for these results.

In addition to the initial review of the139 applications, the audit reviewed applicants’ eligibility
based on their own records. They performed a complete analysis of the producers’ records to
determine whether they met one of the three criteria shown on the TAAF Program application
form: (1) a decline in production for the petition year, compared to the most recent prior year in
which the commodity was produced; (2) a decline in the average unit price received during the
petition year, compared to the average price received during the prior 3 years; or (3) a decline in
the recorded USDA county price for the petitioned commodity as of the petition filing date,
compared to USDA’s average county prices in that county for the prior 3 consecutive marketing
years.

Because of the time and resources needed to complete this review, the audit team was not able to
complete all 139 applications selected in our sample. They selected the 80 applications located
at 21 county offices for this review by: (1) reviewing 100 percent of the applications within
county offices containing 1 to 3 statistically sampled applications, and (2) reviewing 50 percent
of the applications within county offices containing between 4 and13 statistically sampled
applications. Even though the units reviewed remained random, this lower number of sampled
applications, combined with the low error rates found, led to poor precision for our estimates.
The lower bounds of the projections calculated were large negative numbers. We were not able
to do additional audit work to correct for this issue. Hence, our report does not include any
estimates to the universe of producers we wanted to project to. Instead, all reported issues are
based on actual findings only.




36     AUDIT REPORT 50703-0001-23
Agency's Response




                USDA’S
  FAS’ RESPONSE, FSA’S RESPONSE, AND
           NIFA’S RESPONSE
           TO AUDIT REPORT




                       AUDIT REPORT 50703-0001-23   37
United States
Department of
Agriculture                                                                                 September 13, 2013
Farm and Foreign
Agricultural          TO:            Gil Harden
Services                             Assistant Inspector General for Audit
Foreign                              Office of Inspector General
Agricultural
Service
                      FROM:          Phil Karsting /s/ Bryce Quick for Phil Karsting
1400 Independence                    Administrator
Ave, SW
Stop 1060                            Foreign Agricultural Service
Washington, DC
20250-1060
                      SUBJECT:       Response to OIG Official Draft Report -- “American Recovery and
                                     Reinvestment Act – Trade Adjustment Assistance for Farmers Program”
                                     (50703-0001-23)


               Thank you for providing the Foreign Agricultural Service (FAS) with the Office of Inspector
               General (OIG) official draft report on “American Recovery and Reinvestment Act – Trade
               Adjustment Assistance for Farmers Program.” FAS worked closely with the Farm Service
               Agency (FSA), the National Institute of Food and Agriculture (NIFA), and the Economic
               Research Service (ERS) in administering this complex program, and is pleased with the statistics
               OIG included in the official draft report that identifies the positive results.

               As indicated in the official draft report, the American Recovery and Reinvestment Act both
               reauthorized and modified the TAAF Program. FAS took aggressive action to implement
               statutory changes to the program, including the statutorily mandated relaxing of the eligibility
               criteria for applicants, which enabled a larger number of agricultural producers and fishermen to
               be eligible for benefits. In addition, we successfully implemented the enhanced levels of training
               and technical assistance to more effectively help producers adjust to import competition.

               Several OIG recommendations in this draft report relate to administration of the TAAF Program
               going forward. While FAS generally agrees with many of these recommendations, we cannot
               know the statutory requirements or administrative flexibility of a future TAAF Program, just as
               the 2009-2011 TAAF Program differed substantially from its predecessor.

               Of the 15 total recommendations made by OIG, please note the seven recommendations
               addressed specifically to FAS. Responses to the other recommendations will be provided
               separately by FSA and NIFA.


               Recommendation 1:

               FAS should immediately return the $65.1 million in unobligated FY 2009 Trade Adjustment
               Assistance for Farmers (TAAF) Program funds to the Treasury.



                                                  USDA is an Equal Opportunity Employer
                                                    2

FAS Response:

FAS agrees with this recommendation. FAS will return to the Treasury all unobligated FY 2009
TAAF Program funds by December 31, 2013.


Recommendation 2:

FAS should review the financial accounts for the FY 2010 and FY 2011 TAAF Program
operations and determine whether unneeded funds still remain on the financial records. If so,
FAS should return any unneeded funds to the Treasury.

FAS Response:

FAS agrees with this recommendation. FAS will review the financial accounts with FY 2010
and FY 2011 TAAF Program operations and return any unneeded funds to the Treasury by
December 31, 2013.


Recommendation 3:

If the TAAF Program is funded after FY 2013, FAS should perform an analysis at the end of
each fiscal year, identify all unobligated funds, and return all excess funds to the Treasury.

FAS Response:

FAS agrees with this recommendation. In any future TAAF Program, if statutory provisions
allow, FAS will review all unobligated funds in the TAAF Program financial accounts at the end
of each fiscal year and return any unneeded funds to the Treasury.


Recommendation 4:

 If the TAAF Program is funded after FY 2013, develop and implement procedures that require a
complete review and analysis of all documentation submitted by producer groups prior to
granting price pre-certification approval.

FAS Response:

FAS agrees with this recommendation. In any future TAAF Program, if statutory provisions and
funding allow, FAS will implement a more extensive analytical process to determine if prices
submitted by producer groups as part of a price pre-certification request are representative of
prices received by producers in the requested region. The extent to which this recommendation
                                                    3

could be implemented may be impacted by statutory timelines and appropriated allowances for
such efforts.

Recommendation 5:

If the TAAF Program is funded after FY 2013, require FSA to conduct spot checks of sampled
participants that were granted eligibility under the price pre-certification approval to ensure
their records support a decline.

FAS Response:

The provisions for spot checks of producers are found at C.F.R. 1580.502(d) as follows: “…if
requested in writing by the U.S. Department of Agriculture or any agency thereof, or the
Comptroller General of the United States, the producer shall provide all information and
documentation the reviewing authority determines necessary to verify any information or
certification provided under this subpart…” In any future TAAF Program, if statutory and
regulatory provisions allow, FSA will consider conducting spot checks of producers who applied
under a price pre-certification to verify information or certification provided. We note that any
such information supplied by producers under a spot check could not affect their eligibility if a
price pre-certification has been approved. The extent to which this recommendation could be
implemented may be impacted by statutory timelines and appropriated allowances for such
efforts.


Recommendation 6:

If the TAAF Program is funded after FY 2013, ensure that the data provided by the producer
groups include prices that support a decline in all counties considered part of a combined county
office.

FAS Response:

FAS agrees with this recommendation. In any future TAAF Program, if statutory provisions and
funding allow, FAS will implement a more extensive analytical process to determine if prices
submitted by producer groups as part of a price pre-certification request are representative of
prices received by producers in the requested region, including producers that reside within an
FSA administrative county (combined county). The extent to which this recommendation could
be implemented may be impacted by statutory timelines and appropriated allowances for such
efforts.
                                                  4

Recommendation 8:

If the TAAF Program is funded after FY 2013, develop and implement oversight procedures to
review TAAF Program operations for weaknesses and areas for improvement.

FAS Response:

FAS agrees with this recommendation. The TAAF Program is a complex undertaking with key
functions provided by FAS, FSA, NIFA, ERS, and our university partners. In any future TAAF
Program, FAS will continue to work closely with our program partners with the goal of
implementing a process that is accurate, effective, efficient, and meets all statutory and
regulatory requirements.

If you have any questions or concerns regarding this memorandum, or if you need additional
information, please contact James Gartner, FAS’s Audit Liaison, on (202) 720-0517.
Farm and               DATE:          September 13, 2013
Foreign
Agricultural
Services

Farm                   TO:            Director, Farm and Foreign Agriculture Division
Service                               Office of Inspector General
Agency

Operations Review
and Analysis Staff
                       FROM:          Philip Sharp, Director /s/ Philip Sharp
1400 Independence                     Operations Review and Analysis Staff
Ave, S.W., Stop 0540
Washington, DC
20250                  SUBJECT:       Farm Service Agency’s Response to Office of Inspector
Voice: 202-690-2532
                                      General Report Official Draft Report, American Recovery
Fax: 202-690-3354                     and Reinvestment Act – Trade Adjustment Assistance for
                                      Farmers Program, Audit 50703-0001-23


                       The Farm Service Agency (FSA) responses to Recommendations 7 and 9 through
                       13 are listed below for the subject audit.
                       Recommendation 7

                       Require the producers who refused to submit production records to OIG to
                       submit the required documentation to the agency for review. For producers that
                       do not submit the requested documentation, collect all TAAF Program payments,
                       totaling approximately $27,885, and withhold any future TAAF Program
                       payments.

                       Agency Response:

                       The provisions for spot checks of producers are found at C.F.R 1580.502(d) as
                       follows: “…if requested in writing by the U.S. Department of Agriculture or any
                       agency thereof, or the Comptroller General of the United States, the producer
                       shall provide all information and documentation the reviewing authority
                       determines necessary to verify any information or certification provided under
                       this subpart…” Under a pre-certification it is a given that there will be
                       producers who would not have been eligible for benefits on the basis of their own
                       price data, but who will be eligible because they are applying in a county with a
                       price certification. FAS and FSA have determined that it is not necessary for
                       producers who met the program’s price eligibility requirement, as part of an
                       approved price pre-certification, to supply additional documentation. As a result,
                       producers covered under an approved price pre-certification, who did not provide
                       documentation to the OIG, do not need to return cash benefits received for
                       completing the program’s training requirements. Whether their price data would
                       have supported their eligibility is of no relevance, thus no further action is
                       required.
Director, Farm and Foreign Agriculture Division
Page 2

Recommendation 9

Collect TAAF Program payments totaling $84,000, from those producers whose self-
certification was not supported by their records.

Agency Response:

Nine producers were identified by the Office of Inspector General during their field work
to have questionable eligibility documentation or who did not respond to OIG’s request
for additional documentation. The nine producers included; one shrimp producer in
Mississippi, two shrimp producers in Louisiana, two shrimp producers in North Carolina,
and four shrimp producers in Florida. USDA had previously identified and disapproved
for benefits the shrimp producer in Mississippi. FAS has since received an appeal of this
disapproval from the producer, and is working with the Office of General Counsel to
make a determination on this appeal. The two shrimp producers in Louisiana have been
determined after further review of their records by USDA to be eligible for benefits, thus
no further action is required. The two shrimp producers in North Carolina elected to
withdraw from the program without receiving any benefits, thus no further action is
required. The four shrimp producers in Louisiana have been determined after further
review of their records by USDA to be eligible for benefits, thus no further action is
required.

Recommendation 10

 Collect the TAAF payment, totaling approximately $1,000, from the producer that was
issued an erroneous payment because of FSA’s use of the manual override feature.

Agency Response:

FSA has determined that all approved producers who received a cash payment have
successfully completed the program’s required training elements, or action has been
taken to implement statutory and regulatory requirements.

Recommendation 11

If the TAAF Program is funded after FY 2013, include TAAF Program operations,
including spot checks of applicants’ production records, as part of the agency’s annual
process for performing compliance reviews.
Director, Farm and Foreign Agriculture Division
Page 3

Agency Response:

The provisions for spot checks of producers are found at C.F.R 1580.502(d) as follows:
“…if requested in writing by the U.S. Department of Agriculture or any agency thereof,
or the Comptroller General of the United States, the producer shall provide all
information and documentation the reviewing authority determines necessary to verify
any information or certification provided under this subpart…” In any future TAAF
Program, if statutory provisions allow, FSA will consider conducting spot checks of
producers to verify information or certification provided. The extent to which this
recommendation could be implemented will be determined by statutory timelines and
appropriated allowances for such efforts. The TAAF program has since been added to
the FSA National Review and Spot Check process conducted on an annual basis,
however, we recognize that more substantive questions regarding eligibility must be
included in the future. Therefore, no further action is required at this time.

Recommendation 12

If the TAAF Program is funded after FY 2013, establish and implement controls that
would require the producers to submit production records at the time of application.

FSA Response:

In any future TAAF Program, if statutory provisions allow, FSA will consider requiring
producers to submit production records at the time of application. The extent in which
this will occur largely depends on the agricultural industry that is predominantly
participating in the program and the regions in which these industries are located. Large
numbers of fishermen in the poorer gulf regions, as were predominant with the current
program, along with small FSA county offices, complicates the statutorily limited-in-time
application process. As a result, decisions will need to be made that provide for greater
administrative efficiencies, as was done with this program, by allowing applicants to
provide sufficient information at the time of application to satisfy the program’s
eligibility requirements.

Recommendation 13

If the TAAF Program is funded after FY 2013, develop and implement controls to
prevent the use of the manual override feature with the TAAF program application
system in the absence of the training update.
Director, Farm and Foreign Agriculture Division
Page 4

Agency Response:
In any future TAA for Farmers Program, FSA Headquarters will continue to work closely
with the FSA State Offices (STO) in their efforts to administer this complex program.
The TAAF software provides the STO’s with needed flexibility that allows for
administrative decisions to be made based on the applicant’s unique circumstances. We
will consider the use of a special authorization feature to be added to the software when
the use of a manual override is necessary in the event the program is funded in the future.
FSA Headquarters will continue to provide detailed information to the STO’s on
provisions of the TAAF program and guidance on proper procedures for approvals and
payments per statutory requirements.
                          ______________________________________________________________________________

United States
Department of             DATE:         September 25, 2013
Agriculture
Research,                 TO:           Gil Harden
Education, and                          Assistant Inspector General for Audit
Economics
                                        Office of the Inspector General
National Institute
of Food and Agriculture
1400 Independence
Avenue SW                 FROM:         Cynthia R. Montgomery, MPA /s/ Cynthia Montgomery
Washington, DC                          Assistant Director
20250
                                        Office of Grants and Financial Management
                                        National Institute of Food and Agriculture


                          SUBJECT:      Response to OIG Official Draft Report-- "American Recovery and
                                        Reinvestment Act- Trade Adjustment Assistance for Farmers Program"
                                        (50703-0001-23)


                          The National Institute of Food and Agriculture (NIFA) is in receipt of the Office of
                          Inspector General’s (OIG) draft report entitled “American Recovery and Reinvestment
                          Act-Trade Adjustment Assistance for Farmers Program” (50703-0001-23). The
                          Trade Adjustment Assistance for Farmers Program (TAAF) was created to assist
                          farmers and fisherman impacted by import competition to become more competitive
                          producing their commodity or transition to a different commodity.

                          NIFA would like to thank the OIG for its thorough review of the TAAF program.
                          The purpose of this memorandum is to provide NIFA’s response to the OIG’s
                          recommendations.

                          Recommendation 14:

                          Immediately notify USDA’s Chief Information Officer of the existence of the TAAF
                          Program database and work with its security personnel to complete the certification and
                          accreditation process.

                          Recommendation 15:

                          Work with the Center for Farm Financial Management (CFFM) to implement interim
                          procedures to protect the TAAF Program data until the certification and accreditation
                          process is complete.
NIFA’s Response to Recommendations 14 and 15

NIFA disagrees with Recommendations 14 and 15, however, as an agency we feel that
these recommendations are not applicable to NIFA. The recommendations should be
directed to the Farm Service Agency (FSA) as explained below:

The OIG reported that the TAAF program’s database was comprised of two components:
(a) FSA’s TAAF Application and Payment System; and (b) the Center for Farm Financial
Management (CFFM) at the University of Minnesota’s (UM) National TAAF Training
Coordination Center. The OIG reported that NIFA was responsible to secure the
CFFM’s data because of NIFA’s cooperative agreement with CFFM to host the TAAF
Training Coordination Center and administer training to eligible TAAF participants.
However, NIFA did not secure participants’ personally identifiable information contained
in its component of the database as required by Federal information system security
standards.

The Federal Information Security Management Act of 2002 (FISMA) and USDA’s
Office of the Chief Information Officer (OCIO) both require that agencies protect
Federal information systems against potential harm from unauthorized access to sensitive
information. Additionally, USDA’s OCIO must approve each information technology
system before becoming operational.

NIFA does not support the dichotomy being made by the OIG when it characterizes the
TAAF program’s database as having two components. NIFA understands there to be a
single TAAF database. Specifically, the primary TAAF program database is the TAAF
Application and Payment System maintained by the FSA. NIFA is not the system owner
and has no access to FSA’s Application and Payment System database which is
physically located in Kansas City.

As for the cooperative agreement between NIFA and CFFM, there was no requirement or
expectation for the CFFM to maintain a component of TAAF Program database. NIFA
competitively selected the CFFM to host the National TAAF Training Coordination
 Center to administer the training component of the TAAF program in compliance with
 the Trade Act of 2002, amended by the American Recovery and Reinvestment Act of
2009 (ARRA). NIFA is not the owner of CFFM’s systems used to administer TAAF
 training and technical assistance. Additionally, while NIFA can access the National
TAAF Training Coordination Center’s Distance Learning Portal, access to the TAAF
 training content is restricted to eligible program participants and educators.

FSA and CFFM do share information regarding producers’ program eligibility and
training status. However, NIFA believes FSA acknowledged responsibility for securing
the data maintained by, and shared between, FSA and CFFM at UM. Specifically, on
March 23, 2010, FSA established a Memorandum of Understanding (MOU) with CFFM
at UM to “formally document the data provision arrangement between FSA and CFFM
required for FSA to meet the requirements of the TAAF program.” The MOU
specifically addresses: (a) FSA’s and CFFM’s responsibilities; (b) access to data; (c)
protection and data use requirements; (d) obligation to safeguard FSA data; (e) data
transfer requirements; and (f) protocol for security incidents.

NIFA discussed the TAAF program database and data-sharing with USDA’s OCIO
(Recommendation 14). The OCIO concurred FSA is the rightful owner and responsible
for the TAAF program’s compliance with FISMA and USDA security requirements for
Federal information systems (Recommendation 15).
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
